WAIVER

SUPREME COURT OF THE UNITED STATES

No. [21-5264 |

Melvin Dinkins | Norman K. Moon, et. al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO I am filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Region Ten, CSB

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 Fyfst Street, NE, Washington, D.C. 20543).
ct .
Signature: | i
Date: | 8| ke a |

(Type or print) Name

 

James M. Bowling, IV

© mr. © Ms. © Mrs. © Miss
Firm ist John, Bowling & Lawrence, PLC
Address |416 Park Street :
City & State [Charlottesville Virginia | tip [22902
Phone [4342967138 : | Email imb@stlawva.com

 

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Melvin Dinkins, Pro Se
ce: |123 4th Street N.W.
Charlottesville, VA 22902

 
